CERTIFICATE OF SERVICE
NO. TBD
Bank of Louisiana et al.
Petitioner(s)
v.
Federal Deposit Insurance Corporation
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BANK
by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
OF LOUISIANA ET AL. PETITION FOR WRIT OF CERTIORARI,

Jeffrey B. Wall
Solicitor General of the U.S.
Department of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Minodora Daniela Vancea
Federal Deposit Insurance Corporation
Room VS-D-7176
3501 Fairfax Drive
Arlington, VA 2222 6
(703) 562-2049
mvancea@fdic .gov
Counsel for Federal Deposit Insurance
Corporation

Lucas DeDeus

June 26, 2019
SCP Tracking: Scott-300 St. Charles Avenue-Cover White

